VISA CREDIT CARD AGREEMENT AND FEDERAL TRUTH-IN-LENDING DISCLOSURE
STATEMENT

In the following Visa Credit Card Agreement and Federal
Truth-in-Lending Disclosure Statement (“Agreement”), the
words “I,” “me,” “mine,” “my,” “us,” “they,” “their,” and “our”
mean each and all of those who apply for or use a Digital
Federal Credit Union (DCU) Visa Card(s) whether Prime
Owner, Co-Borrower, or other authorized user. The words
“you,” “your,” and “yours” mean DCU. “Card” means Visa
Platinum, or Visa Platinum Rewards issued to me and any
duplicates you may issue. “Account” means my Visa Credit
Card Account with you. “Statement” means my Visa Monthly
Statement of activity and payment information. "Letter" means
the Visa Credit Card Approval Letter that is sent once a Visa is
approved and is incorporated herein by reference. This account
is subject to the Visa Additional Federal Disclosure Table &
Schedule of Fees and Service Charges also incorporated herein
by reference. I agree to its terms and conditions as well as the
following terms and conditions and any amendments thereto,
by requesting and receiving, signing, using, or permitting others
to use the Visa Card(s) and/or Account issued to me by DCU.

PAYMENT

I promise to repay you in United States dollars at your office,
or at the address indicated on my Statement, all sums advanced
to me or any person I permit to use this account as well as any
applicable FINANCE CHARGE, fee, or service charge in
accordance with the terms and at the rates set forth herein.
Payments will be credited to my DCU balance upon receipt. I
will allow one business day for payments to be reflected in my
available balance with Visa.

ANNUAL PERCENTAGE RATE (APR)

The APR used to calculate the FINANCE CHARGE when applicable on DCU's Visa Credit Card Accounts is a variable rate.
The APR for my Visa Credit Card Account was stated in the
Letter and was based in part on my personal credit history.

PERIODIC FINANCE CHARGE

FINANCE CHARGE begins to accrue from the date the transaction is posted to my Account. The FINANCE CHARGE is calculated (and stored) each day during the billing cycle by taking the
beginning day’s balance and multiplying it by the Periodic Rate
divided by 365. The total FINANCE CHARGE for the Billing
Cycle is the sum of all stored FINANCE CHARGES for that
cycle. No FINANCE Charge will be imposed on new purchases
which appear for the first time during the Billing Cycle if the
entire Previous Statement Balance (including unpaid FINANCE
CHARGE) is paid in full by the payment Due Date and there is
no new cash advance activity. Cash Advances will incur a daily
FINANCE CHARGE for each day the Cash Advance balance
remains on the account. You define Cash Advance in this disclosure under ACCESSING THE ACCOUNT.
FINANCE CHARGE is calculated using the balance as of the
beginning of each day in the Billing Cycle. While transactions
actually posted to my account on the Billing Cycle Close Date
will be included in the Balances and other Totals at the bottom of
each statement, they will not have been used in the calculation of

that cycle’s FINANCE CHARGE as the beginning balance for
that day would have already been determined.

Average Daily Balance: Although the FINANCE CHARGE is
calculated daily, the Average Daily Balance is provided on my
statement for reference. The Average Daily Balance is the total
FINANCE CHARGE for the cycle divided by the number of
days in the cycle divided by the Periodic Rate. The Periodic
Rate is APR divided by 365. I understand there may be minor
variations due to rounding.

MILITARY LENDING ACT DISCLOSURE

For extensions of Consumer Credit to Covered Borrowers,
as those terms are defined within the Military Lending Act
regulations under 12 USC 232, Federal law provides important
protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit
insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account).
To hear this disclosure and a description of you payment
obligation, please contact DCU toll free at 800.328.8797,
weekdays from 8:00 am to 9:00 pm and Saturdays from
9:00 am to 3:00 pm, Eastern time.

MINIMUM PAYMENT

I must pay at least the “Required Payment Due” by the payment
“Due Date” shown on my Statement. The “Required Payment
Due” includes the Minimum Payment Due, Past Due amounts,
any outstanding fees, and any amount in excess of my Credit
Limit, as applicable. I may pay more than the Required Payment
Due, pay more frequently or pay the Previous Balance which
includes any FINANCE CHARGE due, and by doing so will
reduce my FINANCE CHARGE. Information regarding my
Minimum Payment Due is stated in the Disclosure Table.

APPLICATION OF PAYMENTS

I understand that any Payment received is applied in the following order as applicable: (1) Miscellaneous and Late Fees, (2) all
unpaid FINANCE CHARGE, (3) principal. Principal is reduced
in the following order:
• Purchase balance as of last statement
• Cash advance balance as of last statement
• Purchase this cycle
• Cash advances this cycle
Payments received that are in excess of the required minimum
will be applied to balances in descending rate order as applicable.
If all principal balances have the same rate, the payment is
applied to those balances that are in-grace first (e.g. new
Purchases), then to non-grace balances (e.g. Cash Advance/Other
Debit balances).

LATE CHARGE

A Late Charge will be assessed on my Account if my “Required
Payment Due” is not received by you at the address on the front
of my Statement by the payment “Due Date.” The “Required

Payment Due” will include the Minimum Payment Due, Past
Due Amounts, any Fees and Late Charges, and any amount in
excess of my Credit Limit.

OTHER FEES

Additional fees, as stated in your Schedule of Fees and Service
Charges, may apply.

CREDIT LIMIT

You established a Credit Limit for me. This was stated in my
Letter. I agree not to let the unpaid balance exceed this Credit
Limit. I agree to advise you of any change in my financial
condition which may affect my creditworthiness. I agree that I
will update the credit information I have provided you, from
time to time, on your request. I may request an increase in my
Credit Limit with the understanding that Credit Limit increases
must be approved by you.

PURCHASES, ADVANCES, AND LIMITATIONS

I may make purchases and request advances in accordance with
the current loan policies up to my Credit Limit. I understand and
agree that all purchases, advances, and other transactions
requested by me are subject to your authorization and/or approval
and that, for security reasons you may limit the number of these
transactions authorized daily. If circumstances beyond your
reasonable control (such as the electronic authorization system
being “down”) prevent authorization from being obtained, I
understand that approval may be based on an adjusted Credit
Limit, not to exceed my actual available Credit Limit.

ACCESSING THE ACCOUNT

I may authorize a purchase by presenting my Card or Card
Number to a participating VISA plan merchant. Authorized
Cash Advances, for purpose of this disclosure and reflected on
my Statement as such, would be transactions by any of the following methods: presenting my Card or Card Number to you or
another financial institution and signing or authorizing a cash
advance draft; my properly completing a VISA draft; using my
Personal Identification Number (PIN) in conjunction with my
Card at an Automated Teller Machine (ATM) or other type of
electronic terminal that provides access to the VISA system;
transferring or withdrawing funds directly from my DCU Visa
Account through Online Banking, your home banking system;
authorizing a Balance Transfer whether via your home banking
system, in-person at a branch location, or over the phone via
your Call Center; or, having previously authorized your advancing of funds from this Account to clear the amount of any overdraft on my DCU Checking Account up to my available Credit
Limit, in such increments as you may determine, and without
any advance notice to me.
My Card and/or Account may not be used for any illegal
activity or transaction. Further, I may not utilize my Card
and/or Account for the purchase of any goods or services on the
Internet that involves gambling of any sort. Such transactions
include, but may not be limited to, any quasi-cash or online
gambling transaction, any electronic commerce transaction
conducted on an open network, and any betting transaction
including the purchase of lottery tickets or casino gaming chips
or off-track betting or wagering. However, in the event that a
charge or transaction described in this paragraph is approved

and processed, I will still be responsible for such charges.

ELECTRONIC FUNDS TRANSFER

In the event that the use of my Card or Account Number
constitutes an electronic funds transfer, the terms and conditions of the “Electronic Services Disclosure and Agreements” I
received from you will govern such transactions to the extent
that it expands or amends this Agreement.

PREPAYMENT OR IRREGULAR PAYMENTS

Although I must pay the Total Minimum Payment Due, I understand that I have the right to make additional payments at any
time without penalty. I also understand I will only be charged a
FINANCE CHARGE to the date I repay my entire loan. I may
make larger payments without penalty and this may reduce the
total amount of FINANCE CHARGE I will repay. Any partial
payment that (a) delays or (b) accelerates the repayment of
my unpaid balance will (a) increase or (b) decrease my
FINANCE CHARGE.

DEFAULT

I may be considered to be in default if (a) I do not pay the Total
Minimum Payment Due on time, (b) my share account(s) is
seized or attached by legal process and I have authorized you to
automatically transfer payments from such account(s) to my
VISA account, (c) I exceed my Credit Limit, (d) I fail to adhere to
any of the terms of this Agreement, (e) my creditworthiness is
impaired, (f) I die, become insolvent or I am the subject of
bankruptcy or receivership proceedings, (g) I am in default on any
other loan(s) with you, or (h) I have made any misrepresentation
in connection with the loan application and/or this Agreement. If
I am in default, you may terminate this Agreement, terminate any
accumulated points (if applicable), and demand immediate
payment of my entire loan. I understand that FINANCE
CHARGES, Late Charges and other fees (if any) permitted under
this Agreement will continue to accrue until I repay my entire
loan. I also agree to pay your collection costs, reasonable
attorney's fees, and court costs should they become necessary. If I
am in default at the time of reissue of my Card(s), you will not
reissue my Card(s).

TERMINATION

You may terminate this Agreement upon adverse re-evaluation
of my creditworthiness or my default. By giving written notice,
either you or I may terminate this Agreement for other good
cause. In addition, you may suspend credit privileges or reduce
my credit limit upon adverse re-evaluation of my creditworthiness. Written requests to remove a borrower's right to obtain
advances or make purchases under this Agreement will
permanently close the account to any further advances or
purchases. I must write you at: DCU, Attn: Operations,
220 Donald Lynch Blvd., PO Box 9130,Marlborough, MA
01752-9130. In no event will any termination relieve me of my
obligation to repay sums already borrowed, Late Charges, Fees
and Late Charges, collection costs, reasonable attorney's fees,
court costs, and FINANCE CHARGE.

CHANGE OF NAME, ADDRESS, EMPLOYMENT, OR CREDITWORTHINESS

I agree to notify you of any change in my name, address,
employment, or creditworthiness.

LATE PAYMENTS AND INCREASE TO APR

If I fail to pay at least the total “Minimum Payment Due” by the
payment “Due Date” my payment will be considered late and I
may be considered in default. If my payment is considered 60
days late at any time, I understand the Annual Percentage Rate
(APR) used in calculating the FINANCE CHARGE, will be
changed to that stated in the enclosed Disclosure Table. The
adjusted rate will be effective as of the date stated in the notice
which you will send me no later than 45-days prior to
implementing the change and will remain in effect indefinitely
unless the first six (6) payments due after the application of the
Penalty Rate are made on time, in which case the rate will be
restored to that which was in effect prior to the Penalty Rate being
applied. If at anytime you consider my account in default, I
understand you may demand full payment and return of my
Card(s). I also agree to pay outstanding Fees, collection costs,
reasonable attorney fees, and court costs as applicable.

RESPONSIBILITY

I agree to repay you according to the terms of this Agreement for
all purchases, advances, FINANCE CHARGES, Fees and Late
Charges, and collection costs arising from the use of the Account
by me or any other person I permit to use my Account even if
that person exceeds my permission. Any person using the
Account is jointly and severally responsible with me.

CHANGE IN TERMS

This agreement is the contract which applies to all transactions
on my Account even though the sales, cash advance, credit, or
other slips I sign or receive may contain different terms. I
understand that you may amend, modify, add to, or delete from
this Agreement any of the terms and conditions including the
method of application and the amount of FINANCE CHARGE,
effective as to any subsequent advance, by mailing a notice of
the change to me at my last known address. I also understand
that any such notice will be mailed at least forty-five (45) days
prior to the effective date of the change as required by Federal
or other law. Notice of the change in terms is required, but may
be sent as late as the effective date of the change where the
change has been agreed to in writing by me.

SURRENDER OF CARD(S)

The Card(s) remains your property and I agree to surrender the
Card to you upon request. You may cancel, modify, or restrict
the use of the Card and/or Account with or without notice: if
my Account is in default, if you are aware that I have violated
any term of this or any other DCU Disclosure or Account
Agreement whether or not you suffer a loss, or when necessary
to maintain or restore the security of my Account(s) which you
may choose to do, for example, if my Card remains inactive in
excess of twelve months and there is no outstanding balance.

LOST OR STOLEN CARD(S) AND
UNAUTHORIZED USE

I agree to notify you within 48 hours if I believe my Card(s) has
been lost or stolen. To report a lost or stolen Card(s), or the
unauthorized use of my Card(s), Account Number, Personal
Identification Number (PIN), or any combination of the three, I
must call you at: 503.263.6700 or 800.328.8797, or write you at:
DCU, Attn: Operations, 220 Donald Lynch Blvd., PO Box 9130,

Marlborough, MA 01752-9130. I may be liable for the unauthorized use of my Account. I will not be liable for unauthorized use that occurs after I notify you by phone or when you
receive my written notification at the above address. In any
case, my liability for unauthorized use will not exceed $50.00.
However, in accordance with Visa International, Inc. Operating
Rules and Regulations, my liability for fraudulent transactions
resulting from the use of a lost/stolen Card will be $0.

TRANSACTION SLIPS

My Statement will identify the merchant, electronic terminal,
or financial institution at which transactions were made but
sales, cash advances, credit, or other slips cannot be returned
with the Statement. I will retain the slips furnished at the time
of transaction in order to verify my Statement activity. You
may charge a Duplicate Copy fee for any photostatic copies of
slips I request.

CREDIT INFORMATION

I authorize you to investigate my credit standing when opening,
renewing, or reviewing my Account and I authorize you to disclose information regarding my Account to others who inquire
of you about my credit standing to the extent authorized by law.

PLAN MERCHANT DISPUTES

You are not responsible for the refusal of any plan merchant
or financial institution to honor my Card. You are subject to
claims and defenses (other than tort claims) arising out of
goods or services I purchase with the Card, only if I have
made a good faith attempt but have been unable to obtain
satisfaction from the plan merchant, and (a) my purchase was
made in response to an advertisement you sent or participated
in sending me; or (b) my purchase cost more than $50 and
was made from a plan merchant in my state or within 100
miles of my current mailing address. I must resolve any other
dispute directly with the plan merchant.

FOREIGN TRANSACTIONS

Purchase and Cash Advances I make in foreign countries and
in foreign currencies will be billed to me in U.S. dollars. The
exchange rate between transaction currency and the billing
currency used for processing international transactions is a
rate selected by Visa from the range of rates available in
wholesale currency markets for the applicable central processing date, which rate may vary from the rate Visa itself
receives; or the government-mandated rate in effect for the
applicable central processing date.

PAYMENTS MARKED “PAID IN FULL”

You may accept checks or other types of payment which are
marked “payment in full” or use other language to indicate
full satisfaction of any indebtedness, without being bound by
such language or waiving any rights under this Agreement.
Full satisfaction of indebtedness shall be accepted by you only
in a written agreement, signed by an authorized representative.

RETURNS AND ADJUSTMENTS

Merchants and others who honor my Card may give credit for
returns or adjustments, and they will do so by transmitting a

credit to my Account. If this credit exceeds my outstanding
balance, any residual will be transferred to my share account.

DELAY IN ENFORCEMENT

You can delay enforcing any of your rights under this
Agreement without losing them.

GOVERNING LAW

I understand and agree that this Agreement is made in
Massachusetts and shall be governed by the Laws of the

Commonwealth of Massachusetts to the extent that
Massachusetts law is not inconsistent with controlling federal
law. I also understand that Massachusetts' choice of law rules
shall not be applied if they would result in the application of
non-Massachusetts law.

INTEGRATED DOCUMENT(S)

Any separate sheet of paper labeled “Additional Federal
Disclosure” which is delivered with or separate from this
document is an integrated part of this Agreement and is
incorporated by this reference.

ADDITIONAL TERM APPLICABLE TO VISA
CHECKS

Check Uses: I can use my Visa Checks (“Checks”) to
purchase goods and services or to obtain cash up to the
amount of my Credit Limit. Use of my Checks is a cash
advance on my Visa Account.

Limitations: You are not required to honor a Check that will
cause me to exceed my Credit Limit. You will not pay a
Check if at the time the Check is presented, I am in default or
you have suspended, terminated, or canceled my Account.
Each Check must be in the form you have issued to me.
Checks may be used only by the person(s) whose name(s) is
printed on the Checks. I am responsible for all authorized use
of my Checks. I may not use my Checks to pay any amount
which I owe you under my Account.

Periodic Statements: My Statement will show me an itemization of the Checks posted to my Account during the billing
cycle. Checks paid by you will not be returned to me with my
Statement.
Returned Check Fee: You will charge a fee per returned
Check which will be billed to my Account, if my Check(s)
cannot be paid.

Stop Payment: Provided such request is timely, so that you
shall have a reasonable opportunity to act upon it under your
rules, I may order a Stop Payment on a Check drawn on my
Account, other than one that has been guaranteed. You may,
but shall not be obligated to, receive such order orally. In such
event, the order shall be valid for only fourteen (14) days
thereafter unless confirmed in writing. Written stop payment
orders will remain in effect only six (6) months unless
renewed in writing. I have the burden of establishing the fact
and amount of loss resulting from payment contrary to a bind-

ing stop payment. You will charge a fee when I place a Stop
Payment on my check(s) which will be billed to my Account.

Surrender of Visa Checks: Checks are your property. You
reserve the right to revoke them at any time. I agree to return
them at your request.

COPY RECEIVED

I acknowledge receipt of this copy of your “Visa Credit Card
Agreement and Federal Truth-in-Lending Disclosure
Statement” and accept and agree to its terms and conditions.

NOTICE

See the statement below for important information regarding
my right to dispute billing errors.

MY BILLING RIGHTS

(KEEP THIS NOTICE FOR FUTURE REFERENCE)
This notice contains important information about my rights
and your responsibilities under the Fair Credit Billing Act.

NOTIFICATION IN CASE OF ERRORS OR
QUESTIONS ABOUT MY STATEMENT

If I think my Statement is wrong, or if I need more information about a transaction on my Statement, I must write you on
a separate sheet at: DCU, Attn: Operations, 220 Donald Lynch
Blvd., PO Box 9130, Marlborough, MA 01752-9130.

I must write as soon as possible. You must receive notification
from me no later than sixty (60) days after you send me the
FIRST Statement on which the problem or error appeared. I
may telephone you but doing so WILL NOT preserve my
rights. In my letter, I must:
1. Tell you my name and account number;
2. Reference the dollar amount of the suspected
error; and,
3. Describe the error or the transaction and explain as
clearly as I can why I believe it is an error or why I
need more information.

If I have authorized you to make my Credit Card payment
automatically from my Savings or Checking Account, I can
stop the payment on any amount I think is wrong. To stop the
payment, I must write you at: Digital Federal Credit Union,
Attn: Account Services, 220 Donald Lynch Blvd., PO Box
9130, Marlborough, MA 01752-9130. You must RECEIVE
my letter no later than three (3) business days before the automatic payment is scheduled to occur.

MY RIGHTS AND YOUR RESPONSIBILITIES
AFTER YOU RECEIVE MY WRITTEN NOTICE
You must acknowledge my letter within thirty (30) days, unless
you have corrected the error within that time. Within ninety
(90) days, you must either correct the error or explain why you
believe the Statement was correct.
After you receive my letter and during your investigation, you
cannot try to collect any amount I question or report me as
delinquent for my failure to pay this amount. You can continue

to send me a Statement for the amount I question, including
any FINANCE CHARGES and you can apply any unpaid
amount against my credit limit. I do not have to pay the amount
in question while you are investigating but am still obligated to
pay the portion(s) of my Statement that are not in question.
If you find that you made an error, I will not have to pay any
FINANCE CHARGE related to any questioned amount. If
you did not make an error, I may have to pay applicable
FINANCE CHARGES and I will have to make up any missed
payments on the questioned amount. In either case, you will
send me a Statement showing the amount I owe and the date
that it is due. If I then fail to pay the amount that you think I
owe, you may report me as delinquent. However, if your
explanation does not satisfy me and I write to you within ten
(10) days telling you that I refuse to pay, you must make
everyone that you report to aware that I have questioned your
Statement and you must tell me the name of anyone you
report to. Further, you must notify anyone that you report to
upon resolution of this matter.
If you do not follow these rules, you cannot collect the first $50
of the questioned amount, even if my Statement was correct.

VISA® CREDIT CARD
AGREEMENT AND FEDERAL
TRUTH-IN-LENDING
DISCLOSURE STATEMENT
IMPORTANT DOCUMENT
PLEASE KEEP FOR YOUR
RECORDS

SPECIAL RULES FOR CARD PURCHASES

If I have a problem with the quality of property or services
purchased with my Credit Card, and I have tried in good faith
to correct the problem with the merchant, I may have the right
to not pay the remaining amount due on that property or
service provided (a) I made the purchase in my home state or
within 100 miles of my current mailing address; and (b) the
purchase was for more than $50.
These limitations do not apply if you own or operate the
merchant, or if you mailed the advertisement for the
property or services.

SEVERABILITY

If any provision of this Agreement is found to be unlawful
or unenforceable, that provision shall be deleted from this
Agreement and the remaining provisions shall remain in
full force and effect.

Effective January 2019

M718 D514B (1.2019)

220 Donald Lynch Blvd • PO Box 9130
Marlborough, MA 01752-9130
508.263.6700 • 800.328.8797
dcu.org • dcu@dcu.org
TTY: 800.395.5146 (For Hearing Impaired Only)

- Additional Federal Disclosure Table Annual Percentage Rate (APR) for Purchases,
Balance Transfers, and Cash Advances

8.50% to 18.00%

when you open your account, based on your
DCU Visa creditworthiness. After that, your APR will vary with the market based on
Prime Rate*.
DCU Rewards Visa
when you open your account, based on your
creditworthiness. After that, your APR will vary with the market based on
Prime Rate*.

11.25% to 18.00%

DCU Secured Visa
Penalty APR (delinquency) and When It
Applies
How Long Will the Penalty APR Apply?

How to Avoid Paying Interest on Purchases
Fees
Minimum Interest Charge
For
Credit
Annual
FeeCard Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
Minimum Finance Charge:
• Balance Transfer
• Cash Advance
• Foreign Currency Transaction
Penalty Fees:
• Late Payment
• Overlimit

11.50% after that, your APR will vary with the market based on Prime Rate*.
18.00%
This APR may be applied to your account if you make a late payment.
If your APR is increased for this reason, the Penalty APR will apply until you
have made six consecutive payments (minimum or higher) when due, beginning with the first payment due following the effective date of the change.
Your due date is approximately 25 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a credit card, visit the website
None
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

None
None
None
None
Up to $35.00 per occurrence
None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)".
* The Prime Rate used to determine your APR is the Prime Rate as published in the Wall Street Journal at the end of the month immediately

preceding the start of each billing cycle.
The above information is current as of March 30th, 2020, and is subject to change after that date. Please contact us at any branch, by emailing us
at dcu@dcu.org or by calling 800.328.8797 if you wish to ascertain what changes, if any, have been made to the Credit Union's Visa credit card program
since that date. (See also DCU’s Visa Credit Card Agreement and Federal Truth in Lending Disclosure Statement).
M718a X467A (3.2020)

